      DEPARTMENT OF HEALTH & HUMAN SERVICES                             Office of Inspector General

                                                                        Washington, D.C. 20201




March 15, 2010

TO:           Charlene Frizzera
              Acting Administrator
              Centers for Medicare & Medicaid Services


FROM:         /Joseph E. Vengrin/
              Deputy Inspector General for Audit Services


SUBJECT:      Review of Arizona’s Medicaid Claims for School-Based Health Services
              (A-09-07-00051)


Attached, for your information, is an advance copy of our final report on Arizona’s Medicaid
claims for school-based health services. We will issue this report to the Arizona Health Care
Cost Containment System Administration within 5 business days.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact George M. Reeb, Assistant Inspector General for the Centers for
Medicare & Medicaid Audits, at (410) 786-7104 or through email at George.Reeb@oig.hhs.gov
or Lori A. Ahlstrand, Regional Inspector General for Audit Services, Region IX, at
(415) 437-8360 or through email at Lori.Ahlstrand@oig.hhs.gov. Please refer to report number
A-09-07-00051.


Attachment
     DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General

                                                                          Office of Audit Services, Region IX
                                                                          90 – 7th Street, Suite 3-650
                                                                          San Francisco, CA 94103

March 22, 2010

Report Number: A-09-07-00051

Marc Leib, M.D.
Chief Medical Officer
Office of the Director
Arizona Health Care Cost Containment System
801 East Jefferson Street, Mail Drop 4100
Phoenix, AZ 85034

Dear Dr. Leib:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled “Review of Arizona’s Medicaid Claims for School-Based
Health Services.” We will forward a copy of this report to the HHS action official noted on the
following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact Jerry McGee, Audit Manager, at (323) 261-7218, extension 603, or through email at
Jerry.McGee@oig.hhs.gov. Please refer to report number A-09-07-00051 in all correspondence.

                                             Sincerely,



                                             /Lori A. Ahlstrand/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Marc Leib, M.D.


Direct Reply to HHS Action Official:

Ms. Jackie Garner
Consortium Administrator
Consortium for Medicaid and Children’s Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, IL 60601
Department of Health & Human Services
           OFFICE OF
      INSPECTOR GENERAL




         REVIEW OF
 ARIZONA’S MEDICAID CLAIMS
     FOR SCHOOL-BASED
      HEALTH SERVICES




                      Daniel R. Levinson
                       Inspector General

                         March 2010
                        A-09-07-00051
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Congress amended section 1903(c) of the Social Security Act in 1988 to permit Medicaid
payment for medical services provided to children under Part B of the Individuals with
Disabilities Education Act through a child’s individualized education plan (child’s plan). In
addition to other Federal and State requirements, school-based health services must be
(1) actually furnished, (2) fully documented, (3) provided by an individual who meets Federal
and State qualification requirements, (4) prescribed or referred by a physician or another
appropriate professional, and (5) provided to eligible recipients.

Covered services may include, but are not limited to, occupational therapy, physical therapy,
speech pathology, psychological counseling, nursing, and transportation services. Local
education agencies provide or arrange such services for children with special needs identified in
their child’s plans.

In Arizona, the Arizona Health Care Cost Containment System Administration (the State
agency) administers the Medicaid program, which covers school-based health services under
the Direct Service Claiming (DSC) program. The DSC program allows local education agencies
to receive Federal reimbursement through the State agency for direct (face-to-face), Medicaid-
approved medical services provided to eligible students. The State agency contracted with a
third-party administrator (administrator), which served as the DSC program’s single point of
contact for local education agencies.

For the period January 1, 2004, through June 30, 2006, the State agency claimed approximately
$184 million ($124 million Federal share) for Medicaid school-based health services.

We reviewed a random sample of 100 student-months, which included 1,989 Medicaid
school-based health services totaling $32,212 (Federal share). A student-month represented all
paid Medicaid school-based health services provided to an individual student for a calendar
month.

OBJECTIVE

Our objective was to determine whether the State agency claimed Federal reimbursement for
Medicaid school-based health services in accordance with Federal and State requirements.

SUMMARY OF FINDINGS

The State agency did not always claim Federal reimbursement for Medicaid school-based health
services in accordance with Federal and State requirements. Of the 100 sampled student-months,
54 student-months did not have any deficiencies. However, the remaining 46 student-months
had one or more school-based health services that were not allowable. Some of the unallowable
services had multiple deficiencies, which included the following:




                                                i
      Services were not provided or service units were overbilled (23 student-months).

      Documentation requirements were not met (15 student-months).

      Speech therapy provider requirements were not met (12 student-months).

      Unallowable transportation services were provided (seven student-months).

      Prescribing or referring provider requirements were not met (five student-months).

      Student eligibility requirements were not met (two student-months).

As a result, the State agency received Federal reimbursement of $6,764 for unallowable school-
based health services.

The State agency claimed unallowable services because it did not have adequate controls to
ensure that claims for Medicaid school-based health services submitted by local education
agencies complied with Federal and State requirements. Specifically, the State agency did not
adequately oversee the DSC program’s administrators. Further, the State agency issued policy
manuals to school-based health providers that included incorrect guidance concerning Federal
and State requirements.

Based on our sample results, we estimated that the State agency was improperly reimbursed at
least $21,288,312 in Federal Medicaid funds for school-based health services.

RECOMMENDATIONS

We recommend that the State agency:

      refund to the Federal Government $21,288,312 for unallowable school-based health
       services,

      review periods after our audit period and make appropriate financial adjustments for any
       unallowable school-based health services,

      strengthen its oversight of the DSC program to ensure that claims for school-based health
       services comply with Federal and State requirements, and

      revise its policy manuals to ensure compliance with Federal and State requirements.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency concurred with our second, third, and
fourth recommendations. However, the State agency did not concur with our recommended
refund and commented that it did not have an opportunity to review the details of the
methodology used for the extrapolation of the sample results. In addition, the State agency


                                               ii
disagreed with our conclusion that speech therapy provider requirements were not met by
commenting that speech therapy services could be provided by practitioners who did not meet
Federal requirements. The State agency’s comments are included in their entirety as
Appendix D.

OFFICE OF INSPECTOR GENERAL RESPONSE

We orally explained our sampling methodology during meetings with the State agency and
described our estimation methodology in Appendix A. During our audit, the State agency did
not request additional information on our sampling methodology. In addition, we disagree with
the State agency that speech therapy services may be provided by practitioners who do not meet
specific Federal requirements for speech therapy providers at 42 CFR § 440.110. Pursuant to
Federal guidance, speech therapy providers must meet all applicable Federal and State provider
qualifications. We continue to recommend that the State agency refund to the Federal
Government $21,288,312 for unallowable school-based health services.




                                              iii
                                                  TABLE OF CONTENTS

                                                                                                                                        Page

INTRODUCTION ...........................................................................................................................1

          BACKGROUND ...................................................................................................................1
              Medicaid Program......................................................................................................1
              Medicaid Coverage of School-Based Health Services ..............................................1
              Arizona School-Based Health Services .....................................................................2
              Third-Party Administrator Contracts .........................................................................3

          OBJECTIVE, SCOPE, AND METHODOLOGY .................................................................3
               Objective ....................................................................................................................3
               Scope..........................................................................................................................4
               Methodology ..............................................................................................................4

FINDINGS AND RECOMMENDATIONS ..................................................................................5

          UNALLOWABLE SERVICES .............................................................................................6
              Services Not Provided or Service Units Overbilled ..................................................6
              Documentation Requirements Not Met .....................................................................7
              Speech Therapy Provider Requirements Not Met .....................................................7
              Unallowable Transportation Services Provided.........................................................8
              Prescribing or Referring Provider Requirements Not Met ........................................9
              Student Eligibility Requirements Not Met ................................................................10

          INADEQUATE OVERSIGHT AND INCORRECT GUIDANCE.......................................10

          REIMBURSEMENT FOR UNALLOWABLE SERVICES .................................................11

          RECOMMENDATIONS.......................................................................................................11

          STATE AGENCY COMMENTS..........................................................................................11

          OFFICE OF INSPECTOR GENERAL RESPONSE ............................................................12

APPENDIXES

          A: SAMPLE DESIGN AND METHODOLOGY

          B: SAMPLE RESULTS AND ESTIMATES

          C: SUMMARY OF DEFICIENCIES FOR EACH SAMPLED STUDENT-MONTH

          D: STATE AGENCY COMMENTS



                                                                    iv
                                        INTRODUCTION

BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to certain low-income individuals and individuals with disabilities. The
Federal and State Governments jointly fund and administer the Medicaid program. At the
Federal level, the Centers for Medicare & Medicaid Services (CMS) administers the program.
Each State administers its Medicaid program in accordance with a CMS-approved State plan.
Although the State has considerable flexibility in designing and operating its Medicaid program,
it must comply with applicable Federal requirements.

States claim Federal reimbursement for eligible Medicaid expenditures on Form CMS-64,
Quarterly Medicaid Statement of Expenditures for the Medical Assistance Program. The Federal
Government pays its share of a State’s medical assistance expenditures based on the Federal
medical assistance percentage (reimbursement rate), which varies depending on the State’s
relative per capita income.

Medicaid Coverage of School-Based Health Services

Section 411(k)(13) of the Medicare Catastrophic Coverage Act of 1988 (P.L. No. 100-360)
amended section 1903(c) of the Act to permit Medicaid payment for medical services provided
to children under Part B of the Individuals with Disabilities Education Act (IDEA). The Federal
Government may reimburse States for school-based health services included in a child’s
individualized education plan (child’s plan).

In addition to other Federal and State requirements, school-based health services must be
(1) actually furnished, (2) fully documented, (3) provided by an individual who meets Federal
and State qualification requirements, (4) prescribed or referred by a physician or another
appropriate professional, and (5) provided to eligible recipients.

In August 1997, CMS issued a guide entitled Medicaid and School Health: A Technical
Assistance Guide (technical guide). According to the technical guide, school-based health
services included in a child’s plan may be covered if all relevant statutory and regulatory
requirements are met. In addition, the technical guide provides that a State may cover services
included in a child’s plan as long as (1) the services are listed in section 1905(a) of the Act and
are medically necessary; (2) all Federal and State regulations are followed, including those
specifying provider qualifications; and (3) the services are included in the State plan or available
under the Early and Periodic Screening, Diagnostic, and Treatment Medicaid benefit. Covered
services may include, but are not limited to, occupational therapy, physical therapy, speech
pathology, psychological counseling, nursing, and transportation services. Local education
agencies provide or arrange such services for children with special needs identified in their
child’s plans.




                                                 1
Arizona School-Based Health Services

In Arizona, the Arizona Health Care Cost Containment System Administration (the State
agency) administers the Medicaid program, which covers school-based health services under the
Direct Service Claiming (DSC) program. The DSC program allows local education agencies 1 to
receive Federal reimbursement through the State agency for direct (face-to-face), Medicaid-
approved medical services provided to eligible students. Under the DSC program, the State
agency covers the following services if they are provided by qualified school-based providers
who are employed by or have contracted with local education agencies:

          audiology services; 2

          assessment, diagnosis, and evaluation services;

          behavioral health services;

          nursing and health aide services;

          occupational, physical, and speech therapy services; and

          transportation services.

The State agency processes and adjudicates claims for school-based health services through its
Prepaid Medical Management Information System. It reimburses participating local education
agencies 3 for covered services delivered by qualified providers on a fee-for-service basis.

Pursuant to Arizona State plan amendment 00-009 (the State plan), a local education agency
authorizes medically necessary services subject to the limitations specified in the State plan and
in compliance with (1) applicable Federal and State law and regulations, (2) the State agency’s
policies and procedures, or (3) other applicable guidelines.

To document its medical and program policies and requirements, the State agency issued the
Medical Policy Manual (policy manual). Specifically, chapter 700 of the policy manual provides
(1) general requirements for Medicaid school-based services; (2) medical and financial record
requirements; and (3) conditions, limitations, and exclusions of covered services, including
provider qualifications.




1
 In Arizona, local education agencies include public school districts, charter schools not sponsored by a school
district, and the Arizona State Schools for the Deaf and the Blind.
2
    This coverage, for rehabilitation of those with hearing impairments, became effective January 1, 2005.
3
 A participating local education agency is one that has signed a participating agreement to bill the State agency for
covered services.



                                                            2
From January 1, 2004, through June 30, 2006, Arizona’s Federal reimbursement rate for medical
assistance payments ranged from approximately 67 percent to 70 percent. The State agency paid
local education agencies the Federal share only; the local education agencies were responsible
for the State share.

Third-Party Administrator Contracts

The State agency contracted with a third-party administrator (administrator), which served as the
DSC program’s single point of contact for local education agencies. During our audit period,
MAXIMUS, Inc. (Maximus), was the administrator. Arizona Physicians IPA, Inc. (Arizona
Physicians IPA), was the administrator before January 1, 2004, when Maximus took over. 4

The contracts between the State agency and the administrators required the State agency to
(1) process claims; (2) provide oversight activities, including policy development and auditing;
(3) approve all written materials developed by the administrators; and (4) pay the administrators
for covered services claimed by local education agencies. The contracts required the
administrators to:

       help local education agencies prepare appropriate claims for school-based health services;

       serve as the claims clearinghouse by collecting claims from local education agencies,
        submitting them to the State agency, and reimbursing local education agencies for State-
        agency-approved services upon receipt of payments from the State agency;

       educate and provide technical assistance to local education agencies; and

       conduct compliance reviews of local education agencies.

The administrators developed handbooks as guidance for local education agencies; the
handbooks provided information necessary to participate in the DSC program, such as covered
services and requirements related to student eligibility, provider registration, and recordkeeping.
The administrators issued handbooks to all school-based health providers containing detailed
instructions on the providers’ responsibilities under the DSC program.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the State agency claimed Federal reimbursement for
Medicaid school-based health services in accordance with Federal and State requirements.




4
 Because we reviewed Medicaid school-based health services that were claimed for Federal reimbursement for the
period January 1, 2004, through June 30, 2006, some of these services were provided before January 1, 2004, and
claimed through Arizona Physicians IPA.


                                                       3
Scope

We reviewed Medicaid school-based health services that were claimed by the State agency for
Federal reimbursement on Form CMS-64 for the period January 1, 2004, through June 30, 2006.
For this period, the State agency claimed approximately $184 million ($124 million Federal
share) for Medicaid school-based health services.

We reviewed a random sample of 100 student-months, which included 1,989 Medicaid
school-based health services totaling $32,212 (Federal share). A student-month represented all
paid Medicaid school-based health services provided to an individual student for a calendar
month. The 1,989 services consisted of 920 transportation services; 732 nursing services
(including 620 health aide services); 328 occupational, physical, and speech therapy services;
and 9 behavioral health services.

We did not review the overall internal control structure of the State agency. Rather, we limited
our review to those controls that were significant to the objective of our audit.

We performed our review from January 2007 through March 2009 and conducted fieldwork at
the State agency office in Phoenix, Arizona, and at selected local education agencies in Arizona.

Methodology

To accomplish our objective, we:

       reviewed applicable Federal and State laws, regulations, and guidelines;

       reviewed the contracts between the State agency and the administrators and applicable
        handbooks issued by the administrators;

       interviewed officials from the State agency, Maximus, and selected local education
        agencies to obtain an understanding of the DSC program;

       obtained from the State agency computer-generated data files of all Medicaid school-
        based health services claimed for the audit period, totaling $183,598,516 ($124,160,096
        Federal share);

       refined the data files into a sampling frame of 528,543 student-months, totaling
        $182,790,631 ($123,614,883 Federal share), as described in Appendix A;

       selected from the sampling frame a simple random sample of 100 student-months;

       obtained medical records and other documentation from the State agency and selected
        local education agencies for the 100 sampled student-months;




                                                4
          reviewed medical records and other documentation and determined whether each service
           for the 100 sampled student-months was allowable in accordance with Federal and State
           requirements;

          discussed our findings with CMS and State agency officials; and

          estimated the Federal share amount for the unallowable school-based health services.

See Appendix A for our sample design and methodology and Appendix B for our sample results
and estimates.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.


                                FINDINGS AND RECOMMENDATIONS

The State agency did not always claim Federal reimbursement for Medicaid school-based health
services in accordance with Federal and State requirements. Of the 100 sampled student-months,
54 student-months did not have any deficiencies. However, the remaining 46 student-months
had one or more school-based health services that were not allowable. As a result, the State
agency received Federal reimbursement of $6,764 for unallowable school-based health services.

Some of the unallowable services had multiple deficiencies. The table below summarizes the
deficiencies noted and the number of student-months that contained each type of deficiency.
Appendix C contains a summary of deficiencies, if any, identified for each sampled student-
month.

                       Summary of Deficiencies in Sampled Student-Months
                                                             Number of Student-Months
                         Type of Deficiency                       With Deficiencies 5
      Services not provided or service units overbilled                  23
      Documentation requirements not met                                                    15
      Speech therapy provider requirements not met                                          12
      Unallowable transportation services provided                                           7
      Prescribing or referring provider requirements not met                                 5
      Student eligibility requirements not met                                               2



5
    The total exceeds 46 because 14 of the 46 student-months contained more than one deficiency.



                                                          5
The State agency claimed unallowable services because it did not have adequate controls to
ensure that claims for Medicaid school-based health services submitted by local education
agencies complied with Federal and State requirements. Specifically, the State agency did not
adequately oversee the work of its administrators in administering the DSC program. Further,
the State agency issued policy manuals to school-based health providers that included incorrect
guidance concerning Federal and State requirements.

Based on our sample results, we estimated that the State agency was improperly reimbursed at
least $21,288,312 in Federal Medicaid funds for school-based health services.

UNALLOWABLE SERVICES

Services Not Provided or Service Units Overbilled

The State Medicaid Manual (chapter 2, section 2497.1) states that Federal reimbursement
“is available only for allowable actual expenditures made ….”

Pursuant to the State plan (Attachment 3.1-A Limitations, page 3): “The medically necessary
Medicaid services must be provided ….” Further, the State plan (Attachment 4.19-B, page 10)
states: “All reimbursable services … must be … [i]dentified in [a child’s plan] as a necessary
service ….”

For 23 of the 100 student-months in our sample, the State agency claimed Federal
reimbursement for services that were not provided or service units that were overbilled: 6

          For 11 student-months, the State agency claimed Federal reimbursement for services
           when the students were absent from school or on a holiday. For example, a local
           education agency’s attendance record showed that the student was absent because of “a
           cold.” However, the health-aide service log provided by the local education agency
           indicated that the service was provided to the student on the date of the absence. Based
           on this service log, the local education agency claimed health aide services.

          For six student-months, the State agency claimed Federal reimbursement for services
           provided for which the service units billed exceeded the quantity or service frequency
           ordered in the child’s plan. For example, the child’s plan for one student specified that
           nursing services be provided 30 minutes a day, which is equivalent to two service units.
           However, the local education agency claimed nursing services of 1 to 1.75 hours a day, or
           four to seven service units.

          For six student-months, the State agency claimed Federal reimbursement for services
           provided for which the service units billed exceeded the quantity or service frequency
           documented in the service log. For example, a local education agency claimed 22 units
           of health aide services even though the service log showed that only 15 units had been
           provided.

6
    The total exceeds 23 because 5 of the 23 student-months contained more than one deficiency.


                                                          6
      For six student-months, the State agency claimed Federal reimbursement for
       transportation services for which the mileage units billed exceeded the mileage
       documented in the trip log. For example, a trip log indicated that the schoolbus provided
       a pickup service from home to school only, with one-way mileage of nine units.
       However, the local education agency claimed two-way mileage of 18 units.

Documentation Requirements Not Met

Section 1902(a)(27) of the Act states: “A State plan for medical assistance must … provide for
agreements with every person or institution providing services under the State plan under which
such person or institution agrees … to keep such records as are necessary fully to disclose the
extent of the services provided to individuals receiving assistance under the State plan ….”

The technical guide (page 45) states:

       A school, as a provider, must keep organized and confidential records that details
       client specific information regarding all specific services provided for each
       individual recipient of services and retain those records for review. … Relevant
       documentation includes the dates of service, who provided the service, where the
       service was provided, any required medical documentation related to the
       diagnosis or medical condition of the recipient, length of time required for service
       if relevant, and third party billing information. This information will be necessary
       in the event of an audit ….

Pursuant to the State plan (Attachment 4.19-B, page 10): “All reimbursable services … must be
… notated in the [child’s plan] as medically necessary and supported with medical records that
can be audited to establish medical necessity.”

For 15 of the 100 student-months in our sample, the State agency claimed Federal
reimbursement for services that did not meet Federal or State documentation requirements:

      For nine student-months, services were not included in the child’s plan.

      For six student-months, services were not supported with service logs that indicated the
       service type and the number of units or amount of time spent on each service provided.

Speech Therapy Provider Requirements Not Met

Federal regulations (42 CFR § 440.110(c)) require that services for individuals with speech,
hearing, and language disorders be provided by or under the direction of a speech pathologist
who meets certain requirements, including having a certificate of clinical competence from the
American Speech and Hearing Association.

The technical guide (page 19) states: “In order for … school providers to … receive Medicaid
reimbursement, they must meet the Medicaid provider qualifications. It is not sufficient for a




                                                7
state to use Department of Education provider qualifications for reimbursement of
Medicaid-covered school health services.”

Pursuant to the State plan (Attachment 4.19-B, page 10): “The provider must meet all applicable
federal and state licensure and certification requirements ….” The State plan (Attachment
3.1-A Limitations, page 4) states: “[P]ersons who have a Provisional Speech and Language
Impaired Certificate must be supervised by an American Speech and Language Hearing
Association–certified pathologist.”

For 12 of the 51 student-months that had speech therapy services in our sample, the State agency
claimed Federal reimbursement for speech therapy services for which there was no
documentation supporting that the providers met Federal requirements. For these providers, the
State agency submitted copies of provisional certificates issued by the Arizona State Board of
Education and/or limited licenses issued by the Arizona Department of Health Services.
However, the State agency did not provide documentation supporting that these providers were
under the direction or supervision of a speech pathologist who met Federal requirements.

Before February 1, 2006, the policy manual (chapter 700, policy 720, page 720-7) stated:

       Speech-Language Pathologists must be licensed through the Arizona Department
       of Health Services. … If not licensed by [Arizona Department of Health
       Services], speech-language pathologists may instead be certified by the Arizona
       Department of Education to provide services in the public school system.
       Therapy services provided by speech-language pathologists who are certified by
       the Department of Education are not covered services when provided to [State
       agency] members through other than the [DSC program].

Effective February 1, 2006, the State agency required a school-based speech service provider
who had a provisional certificate from the Arizona Department of Education to obtain a
temporary or limited license from the Arizona Department of Health Services. However, neither
a provisional certificate nor a temporary or limited license meets the requirements of 42 CFR
§ 440.110(c) unless the speech service provider holding such a certificate or license provides
speech services to students under the direction of a speech pathologist who meets Federal
requirements.

Unallowable Transportation Services Provided

Pursuant to the State plan (Attachment 3.1-A Limitations, page 4), transportation services “will
only be reimbursed on the same day in which the member obtains another Medicaid covered
reimbursable service through the [local education agency].”

For 7 of the 37 student-months that had transportation services in our sample, the State agency
claimed Federal reimbursement for transportation services for which the documentation did not
support that the students had received another Medicaid reimbursable service on the same day.
For three of the seven transportation services, the State agency had denied other services
provided on the same day because the providers were ineligible. For four of the seven



                                                8
transportation services, we determined that the other services provided on the same day were
unallowable.

Prescribing or Referring Provider Requirements Not Met

Federal regulations and the State plan list prescribing or referring provider qualification
requirements for therapy services and nursing and health aide services. For 5 of the 100
student-months in our sample, the providers associated with the services did not meet these
requirements.

Unqualified Prescribing or Referring Providers for Therapy Services

Federal regulations (42 CFR § 440.110) require services for physical, occupational, and speech
therapy to be prescribed or referred by a physician or other licensed practitioner of the healing
arts within the scope of his or her practice under State law.

For 2 of the 66 student-months that had therapy services in our sample, the State agency claimed
Federal reimbursement for therapy services that were not prescribed or referred by qualified
providers. For example, a local education agency claimed physical therapy services for a student
that were not prescribed by appropriate medical personnel. The child’s plan stating the need for
these services was developed by a team of the student’s parent and school representatives, none
of whom were physicians or other licensed practitioners of the healing arts within the scope of
their practice under State law. We requested that the local education agency provide the name
and title of the physical therapist, as well as a copy of his or her license, to support that physical
therapy services were appropriately ordered, prescribed, or referred. The local education agency
responded that it did not have information about any physical therapists “who may have serviced
students during that time frame.”

Unqualified Prescribing Providers for Nursing and Health Aide Services

Pursuant to the State plan (Attachment 4.19-B, page 10): “All reimbursable services … must be
… [o]rdered or prescribed by a qualified provider in accordance with the [policy manual].”
Further, the State plan (Attachment 3.1-A Limitations, pages 3 through 5) lists qualified
providers for each type of reimbursable service. The policy manual (chapter 700, policy 720,
pages 720-1 through 720-10) also lists qualified providers for each type of reimbursable service.
The qualified providers include, but are not limited to, State-licensed physical therapists,
occupational therapists, speech therapists, registered nurses, practical nurses, and psychologists.

For 3 of the 60 student-months that had nursing or health aide services in our sample, the State
agency claimed Federal reimbursement for nursing or health aide services that were not ordered
or prescribed by qualified providers. For example, for one student, a local education agency
claimed health aide services that were not ordered or prescribed by a qualified provider. The
local education agency provided a copy of an assessment and evaluation report, stating that the
student had a specific learning disability in written expression, reading comprehension, basic
reading skills, math calculation, and math reasoning. The team that developed this report did not
include any qualified providers. Based on this report, another team developed the child’s plan,



                                                  9
determining that the student needed health aide services for 30 minutes a day. This team also did
not include any qualified providers.

Student Eligibility Requirements Not Met

The State plan lists student eligibility requirements for Medicaid school-based health services.
For 2 of the 100 student-months in our sample, the State agency claimed Federal reimbursement
for services that did not meet these requirements.

Age Requirement Not Met

The State plan (Attachment 3.1-A Limitations, page 3) requires that students be at least 3 years
old and less than 21 years old to receive Medicaid-covered school-based health services. 7

For 1 of the 100 student-months in our sample, the State agency claimed Federal reimbursement
for health aide and transportation services provided to a student who was 21 years and 4 months
old at the time of service.

Eligibility Requirements Under the Individuals with Disabilities Education Act Not Met

The State plan (Attachment 3.1-A Limitations, page 3) requires that students be determined
eligible for Part B of the IDEA to receive school-based health services and that the services be
identified as necessary in a child’s plan.

To determine a student’s eligibility under Part B of the IDEA, a local education agency performs
assessment, diagnostic, or evaluation services (evaluation services). 8 If the student is determined
to be eligible for school-based health services, the local education agency is reimbursed for the
evaluation services.

For 1 of the 100 student-months in our sample, the State agency claimed Federal reimbursement
for evaluation services provided to a student who was determined by a local education agency to
be ineligible for school-based health services under Part B of the IDEA.

INADEQUATE OVERSIGHT AND INCORRECT GUIDANCE

The State agency did not have adequate controls to ensure that claims for school-based health
services submitted by local education agencies complied with Federal and State requirements.
Specifically, the State agency did not adequately oversee the work of its DSC program
administrators. In addition, the State agency issued policy manuals to school-based health
providers that included incorrect guidance concerning Federal and State requirements. For

7
 The State agency’s policy manual expands eligibility for school-based health services to students who are 21 years
old. However, the State agency did not make a corresponding change to the State plan.
8
  In Arizona, evaluation services are referred to as a multidisciplinary evaluation team assessment, which is usually
performed once every 3 years. Based on this assessment, the local education agencies prepare a report determining
the child’s eligibility pursuant to Part B of the IDEA.


                                                         10
example, the manuals included guidance on the student age requirement and speech therapy
provider qualifications that did not comply with the State plan.

REIMBURSEMENT FOR UNALLOWABLE SERVICES

The State agency did not always claim Federal reimbursement for Medicaid school-based health
services in accordance with Federal and State requirements. Of the 100 sampled student-months,
46 student-months had one or more school-based health services that were not allowable. As a
result, the State agency received Federal reimbursement of $6,764 for unallowable school-based
health services. Based on our sample results, we estimated that the State agency was improperly
reimbursed at least $21,288,312 in Federal Medicaid funds for school-based health services.

RECOMMENDATIONS

We recommend that the State agency:

      refund to the Federal Government $21,288,312 for unallowable school-based health
       services,

      review periods after our audit period and make appropriate financial adjustments for any
       unallowable school-based health services,

      strengthen its oversight of the DSC program to ensure that claims for school-based health
       services comply with Federal and State requirements, and

      revise its policy manuals to ensure compliance with Federal and State requirements.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency concurred with our second, third, and
fourth recommendations. However, the State agency did not concur with our recommended
refund and commented that it did not have an opportunity to review the details of the
methodology used for the extrapolation of the sample results. The State agency also commented
that it reserved the right to contest the extrapolation in any action taken by CMS.

In addition, the State agency disagreed with our conclusion that speech therapy provider
requirements were not met. The State agency commented that speech therapy services could be
provided by practitioners who did not meet specific Federal requirements for speech therapy
providers. Instead, the State agency argued that such services could be furnished by providers
who acted within the scope of their practice as defined by State law. Finally, the State agency
commented that it would work with CMS to determine the appropriate amount of any potential
refund.

The State agency’s comments are included in their entirety as Appendix D.




                                               11
OFFICE OF INSPECTOR GENERAL RESPONSE

We orally explained our sampling methodology during meetings with the State agency and
described our estimation methodology in Appendix A. During our audit, the State agency did
not request additional information on our sampling methodology.

We disagree with the State agency that speech therapy services may be provided by practitioners
who do not meet specific Federal requirements for speech therapy providers at 42 CFR
§ 440.110. Pursuant to Federal guidance, speech therapy providers must meet all applicable
Federal and State provider qualifications. We continue to recommend that the State agency
refund to the Federal Government $21,288,312 for unallowable school-based health services.




                                              12
APPENDIXES
                                                                                     Page 1 of 2


               APPENDIX A: SAMPLE DESIGN AND METHODOLOGY

POPULATION

The population consisted of the Medicaid school-based health services that the Arizona Health
Care Cost Containment System Administration (the State agency) claimed for Federal
reimbursement for the period January 1, 2004, through June 30, 2006.

SAMPLING FRAME

To assist us in creating the sampling frame, the State agency extracted claims data from its
Prepaid Medical Management Information System for 9,542,514 Medicaid school-based health
services claimed for the period January 1, 2004, through June 30, 2006. We excluded from the
claims data 147 services funded by Title XXI (Children’s Health Insurance Program). We
grouped the remaining 9,542,367 services into 530,029 student-months.

From the 530,029 student-months, we excluded the following:

      120 student-months that had a net claimed amount of zero,

      212 student-months that had a net-negative claimed amount,

      511 student-months for 140 students that the Centers for Medicare & Medicaid Services
       had previously reviewed, and

      643 student-months that the State agency’s Office of Program Integrity had previously
       reviewed.

Therefore, the sampling frame consisted of 528,543 student-months for which the State agency
claimed a total of $182,790,631 ($123,614,883 Federal share).

SAMPLE UNIT

The sample unit was an individual student-month. Each sample unit represented all paid
Medicaid school-based health services provided to an individual student for a calendar month.

SAMPLE DESIGN

We used a simple random sample.

SAMPLE SIZE

We selected a sample of 100 student-months.
                                                                                     Page 2 of 2


SOURCE OF RANDOM NUMBERS

The source of our random numbers for selecting sample units was the Office of Audit Services
(OAS) statistical software.

ESTIMATION METHODOLOGY

We used the OAS statistical software to calculate our estimates. We estimated the total Federal
reimbursement to the State agency for unallowable Medicaid school-based health services.
                  APPENDIX B: SAMPLE RESULTS AND ESTIMATES

                                  Sample Details and Results

               No. of       Value of                   Value of        No. of        Value of
              Student-       Frame                      Sample        Student-      Unallowable
              Months in     (Federal      Sample       (Federal      Months With Student-Months
               Frame         Share)        Size         Share)       Deficiencies (Federal Share)
 School-based
health services 528,543   $123,614,883         100      $32,212           46           $6,764


                               Estimated Unallowable Amounts
                    (Limits Calculated for a 90-Percent Confidence Interval)

                               Estimated Value of Unallowable
                                School-Based Health Services
                                      (Federal Share)

                              Point estimate           $35,750,384
                              Lower limit               21,288,312
                              Upper limit               50,212,457
                                                                             Page 1 of 3


        APPENDIX C: SUMMARY OF DEFICIENCIES FOR EACH SAMPLED
                          STUDENT-MONTH

                                           Legend
1 Services not provided or service units overbilled
2 Documentation requirements not met
3 Speech therapy provider requirements not met
4 Unallowable transportation services provided
5 Prescribing or referring provider requirements not met
6 Student eligibility requirements not met

       Office of Inspector General Review Determinations on the 100 Sample Items
                                    Deficiencies Noted

 Sample
  Item        1        2        3        4        5        6   No. of Deficiencies
    1
    2
    3
    4
    5
    6
    7         x        x                 x                             3
    8
    9         x                                                        1
   10                           x                                      1
   11
   12
   13                  x                                               1
   14         x                                   x                    2
   15
   16         x                 x                 x                    3
   17                                                      x           1
   18         x                                                        1
   19         x                                                        1
   20         x                                                        1
   21
   22
   23
   24
   25
   26
   27
   28         x                                                        1
   29
                                               Page 2 of 3


Sample
 Item    1   2   3   4   5   6   No. of Deficiencies
  30     x                               1
  31                 x                   1
  32
  33         x                           1
  34
  35
  36             x                       1
  37         x           x               2
  38
  39                 x   x               2
  40             x                       1
  41
  42
  43
  44
  45
  46
  47
  48             x                       1
  49
  50     x                               1
  51         x               x           2
  52
  53             x                       1
  54
  55
  56
  57     x                               1
  58         x                           1
  59         x                           1
  60         x                           1
  61
  62     x   x                           2
  63             x                       1
  64
  65                 x   x               2
  66
  67     x                               1
  68
  69     x   x       x                   3
  70
  71     x   x                           2
  72     x                               1
                                                    Page 3 of 3


 Sample
  Item     1    2    3    4   5   6   No. of Deficiencies
    73     x                                  1
    74          x         x                   2
    75
    76
    77
    78                    x                   1
    79
    80
    81
    82     x                                  1
    83     x                                  1
    84               x                        1
    85     x                                  1
    86
    87
    88
    89               x                        1
    90
    91          x    x                        2
    92     x    x    x                        3
    93     x                                  1
    94
    95
    96               x                        1
    97
    98
    99
   100     x    x                             2
Category
           23   15   12   7   5   2
 Totals
                                                                                                                  Page 1 of 3


               APPENDIX D: STATE AGENCY COMMENTS 



                                                                                .J:mlce K. BrC::'o\'er , <;O\'ernor
                                                                               AnthOn)' D. ROdae:rs, Director

   AHCCCS
                                                                       SOl Elllt J;>.ffir.rtm,   PhoimL~   liZ 850]4
Ollr first care is YOllr Itealtlt care                                     PO Box 15510, Phoellix.. AZ 85002
      ARIZ ONA HEALTH CARE COST CONTAINMENT SYSTEM                                    PI~Jlle: 6()2 417 4000




October 8, 2009

Lori A. Ahl strand
Regionallnspeclor General for Audit Services
Office of Inspector General
Department of Health and Human Services, Region IX
90 - 7'h Street, Suite 3-650
San Francisco, California 94103

RE:       A-09-07-00051

Dear Ms. Ahlstrand:

The Arizona Health Care Cost Containment System Administration (AHCCCS) has reviewed the
draft report entitled "Review of Arizona's Medicaid Claims for School-Based Health Services."
I appreciate the opportunity to provide comments on the recommendations contained in the draft
report to be taken into consideration in the preparation of the final report.

Refund for Unallowable Services
The draft report recommends that AHCCCS "refund to the Federal Government $21,288,312 for
unallowable school-based health services."

AHCCCS does not concur with this recommendation. The OIG audit identifies issues associated
with $6,749 in federal claims. The $21 million figure comes from an extrapolation of that
limited sample size to the entire program over a multiple year period. AHCCCS has not had the
opportunity to investigate the details of the methodology used to extrapolate or of the
assumptions underlying that methodology or to have those assumptions and methodologies
reviewed by a qualified statistician. As such, AHCCCS does not concur with extrapolation and
wishes to explicitly reserve the right to contest that extrapolation in any action taken by CMS
based on that extrapolation.

A second concern is that the Draft Report concludes that in 12 of 51 cases documentation did not
support that the services were provided by practitioners that met the federal requirements for
speech pathologists in 42 C.F.R. 440.100. However in each case, the services were provided by
licensed practitioners acting within the scope of practice as defined by state law. Therefore, the
providers in question did meet the requirements of section 1905(a)(6) of the Act and of 42 C.F.R.
440.60. Since all of the services were rendered to persons under the age of21, these services are
covered under the EPSDT requirements of 42 U.S.C. 1396a(a)(lO)(A) and 1396d(r) even though
they are not described in the State Plan. As such, it is the State's position that OIG reach this
conclusion in error.

The State will work with CMS to determine the appropriate amount of any potential refund.
                                                                                                  Page 2 of 3




Review Periods after the Audit Period and Make Appropriate Adjustments
The draft report recommends that AHCCCS "review periods after our audit period and make
appropriate financial adjustment for any unallowable school-based health services."

AHCCCS concurs with this recommendation. AHCCCS, in coordination with our contractor,
conducts regular compliance reviews of all participating LEAs. Those reviews are on-going and
encompass the period after the OIG audit timeframe. Findings of unallowable school-based
health services associated with those reviews result in recoupment of funds from the LEA. In
addition, the AHCCCS Office of Program Integrity (OPI) has dedicated resources to conduct
independent audits of participating LEAs.


Strengthen Oversight of the DSC Program
The draft report recommends AHCCCS "strengthen its oversight of the DSC program to ensure
that claims for school-based health services comply with Federal and State requirements,"

As discussed above, AHCCCS conducts multiple audits and has oversight processes in place to
monitor the DSC program. It is the intent of the agency to continue to monitor and improve any
findings from these processes.

In addition to the audit program, AHCCCS routinely conducts reviews of system and program
requirements. Issues or concerns are addressed through policy and program clarifications
designed to improve oversight and compliance. Examples of program modifications and policy
clarifications made during and after the audit period include registering all Health Aides working
in the LEAs and the development of a Health Aide Guidance document and a Clinical Notes
Guidance document for use by the LEAs.

AHCCCS concurs with this recommendation and will continue our efforts to review program
requirements and policies to further improve program compliance and enhance our oversight.


Revise Policy Manuals to Ensure Compliance
The draft report recommends AHCCCS "revise its policy manuals to ensure compliance with
Federal and State requirements."

As AHCCCS has made policy clarifications we have updated our policies, both within our
AHCCCS Medical Policy Manual (AMPM) and through our contractor's handbook. AHCCCS
will continue to make updates to our policies in an effort to further clarify program requirements
for participating LEAs, as well as to ensure that policies are in compliance with Federal and state
requirements.

AHCCCS concurs with this recommendation and will continue our efforts to review program
requirements and policies to further improve program compliance and enhance our oversight
                                                                                                  Page 3 of 3 





In summary, AHCCCS will continue to improve oversight for School Based Claiming in an
effort to enhance future compliance with both Federal and state policy and program regulations.

Thank you again for the opportunity to comment on the draft OIG report. Please contact Claire
Sinay, 602-417-4178, ifthere are any additional questions.



Sincerely,

/Anthony D. Rodgers/

Director




cc:    Tom Betlach, Deputy Director
       Marc Leib, MD, Chief Medical Officer
       Jim Cockerham, Assistant Director, Division of Business and Finance
       Matt Devlin, Assistant Director, Office of Administrative Legal Services
